IN THE SUPREME COURT OF THE UNITED STATES
No.
N.C. STATE BAR, RESPONDENT
v.
VENUS SPRINGS, PETITIONER
CERTIFICATE OF SERVICE
I, Herman Kaufman, counsel for petitioner Venus Springs and a member of
the Bar of this Court, certify that, on August 12, 2021, one copy of the Petition for a
Writ of Certiorari was sent, by the USPS for delivery priority mail and via
electronic mail, to the following counsel:
David R. Johnson
North Carolina State Bar
Post Office Box 25908
Raleigh, NC 27611
(919) 828-4620
djohnson@ncbar.gov
I further certify that all parties required to be served have been served.
/s/ Herman Kaufman
Herman Kaufman

